Supreme Court, U.S.
FILED

WAIVER

FEB 1 9 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-1015

Jeremy J. Walker

v.

Ameriprise Financial Services, Incorporated
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

February 18, 2020

(Type or print) Name

Danya Wayland Blair
0 Mr.

Firm

Ms. 0 Mrs.

❑ Miss

Akerman LLP

Address

112 E. Pecan St., Suite 2750

City & State
Phone

Digitally signed by Danya Wayland Blair
Date: 2020.02.18 18:21:17 -06'00'

Danya Wayland Blair

San Antonio, Texas

210-582-0220

Zip
Email

78205

danya.blair@akerman.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Kirsten M. Castaneda (kcastaneda@adjtlaw.com)

RECEIVED
FEB 2 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

